©”8175 ORDINAL
FILED
MAY 1 2 2021
SUPREMEFC%tJRTLUlSK

IN THE
SUPREME COURT OF THE UNITED STATES

TIMOTHY ALAN MARR,— PETITIONER,
VS

MARK INCH, AND ASHLEY MOODY,— RESPONDENT(S).

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEAL FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

TIMOTHY ALAN MARR: DC# 252162
Central Florida Reception Center-Main Unit
7000 H.C. Kelley Rd.
Orlando, FL 32831
(Phone Number) Warden

QUESTION(S) PRESENTED
Whether the courts below decided an important federal question in a way that conflicts with the

relevant
decisions of this Honorable Court when the lower courts denied Petitioner’s petition for writ of habeas
corpus as untimely, violating Petitioner’s Fourteenth Amendment Rights to due Process.

it

LIST OF PARTIES
[X]
[ ]

All parties appear in the caption of the case on the
cover page.
All parties do not appear in the caption of the case on

the cover page. A list of all parties

to the proceeding in the court whose judgment is the subject of this petition is as follows:

I ' i

ui

TABLE OF CONTENTS
Description

Page

Question Presented....
.11

List of Parties......

.....iii

Table of Contents.....
.IV

Table of Authorities........

.... v

Opinions Below....

....1

Jurisdiction....

....3

Constitutional and Statutory Provisions Involved,

A

Statement of the Case....

5

Statement of the Facts....

...6

Reasons for Granting the Writ.....

..... 1

Conclusion....

APPENDIX A,
APPENDIX B,

APPENDIX C,
APPENDIX D,

.15
INDEX TO APPENDICES
Opinion of the United States Court of Appeals for the Eleventh Circuit, dated March

“:s2o“fct court'Mdd,e Distric' °f Fiorida’ ^
dated ApriUM021d ^ C0Urt °fAPPea‘S denyi"8 m°,i0n f°r reconsid^*ion,
Motion for Reconsideration filed by Petitioner in the United
States Court of
Appeals for the Eleventh Circuit, dated, o/j
me fc A 3j,2c>2-i .

W

TABLE OF AUTHORITIES CITED
Cases

Page

Artuz v. Bennett, 531 U.S. 4, 8 (2000)....................................

10

Carey v. Saffold, 536 U.S. 2,4 (2002).......................................

II

Drew v. Department of Corn, 297 F.3d 1278 (1 lbCir. 2002) ....

12

Day v. McDonough. 547 U.S. 198 (2006)...............................

9

Evans v. Chavis, 546 U.S. 189 (2006).....................................
Holland v. Florida, 560 U.S. 631 (2010)...................................
Irwin [v. Departmenf of Veterans Affairs, 498 U.S. 89 (1990)..
Lawrence v. Florida, 549 U.S. 327 (2007)...................................
Laws v. Lomarque, 351 F. 3d 919 (9th Cir. 2003).....................
Mancino v. Stale, 10 So. 3d 1203(Fla. 4th DCA 2009)...............
McGill V State, 157 So. 3d 433 (Fla. 4th DCA 2015).................
Menominee Indian Tribe v. United States, 136 S.Ct. 750(2016)
Robertson v. Davey, 694 Fed. Appx. 599 (9th Cir. 2017)
Socha v. Boughton, 763 F.3d 674 (7th Cir. 2015)...........................

10
13
13
11,14
19
17
17
14
20
15

Statutes
Title 28 U.S.C. §1 257(a)

4

Constitution
Fourteenth Amendment. U.S. Const.

ii, 5

Rules
Rule 3.850, Fla. R. Crim. P..

....7

V.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari i
issue to review the judgment below.
OPINIONS BELOW
[X]

For cases from federal courts:

The opinion of the United States court of appeals appears at Appendix
A to the petition and is
[

] reported at

[

] has been designated for publication but is not yet reported:or.

or,

[ x ] is unpublished.

The opinion of the United States district

court appears at Appendix Bto the petition and

is

[

3 reported at

[ ] has been designated for publication but is not yet reported:

or, [X] is

unpublished.

[ 3

For cases from state courts:
The opinion of the highest state court to review the
Appendix A to the petition and is
[

] reported at_______

1

merits appears at

[

] has been designated for publication but is not yet reported; or,

[] is unpublished.

The opinion of the Eleventh Judicial Circuit in and for Miami-Dade

appears at

Appendix B to the petition and is
[

] reported at

[

] has been designated for publication but is not yet reported:

or, [

] is unpublished.

1 or,

t

JURISDICTION
[X ]

For cases from federal courts:
The date on which the United States Court of Appeals decided my case was Marc A i( zo2i
[

] No petition for rehearing was timely filed in my case.

[ X ] A timely petition re center . was denied by the United States Court of Appeals on
the following date: Mqrcfc 2^2c2\ and a copy of the order denying rehearing appears at
Appendix D.
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
including.

.(date)

on

.(date)
in Application No.,

A

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(lj.
[

]

For cases from state cou rts:
The date on which the highest state court decided my case was March *,2o2>; A copy of that
decision appears at Appendix A.
[

] A timely petition rehearing was thereafter denied on the following

date:

and a copy of the order denying rehearing

appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari
including

was granted to and

.(date)
.(date) in Application No._A

The jurisdiction of this Court is invoked under 28 U.S.C. § 1 257(a).

3

on

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
AMENDMENT 14
Section 1.

[Citizens of the United States.]

All persons bom or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due process of law: nor
deny to any person within its jurisdiction the equal protection of the laws.

4

STATEMENT OF THE CASE
On May 2. 2006, the prosecution filed a criminal information against the Petitioner (R 6-8). The
prosecution filed an amended information on February 27, 2007; this new information alleged that the
Petitioner, onMay 2,2006. committed the following crimes: (1) robbery with a deadly weapon against
victim Rhea Sheffield; (2) aggravated fleeing and eluding from
the police; (3) resisting arrest with
violence while carrying a weapon against victim Stanley Deckert; and (4) possession of cocaine (R 2728).
After the usual pretrial delays, the case proceeded to trial on February 11, 2008 (TT-301)
a two-day trial, the jury found the Petitioner guilty as charged (R 67-70, T 355-357). At a March 31,

. After
2008.

sentencing hearing, the trial court sentenced the Petitioner to life in prison as a prison release reoffender
on the robbery with a deadly weapon conviction and

concurrent State prison sentences on the other

convictions (R 149-153),203-208).
The Petitioner filed his notice of appeal on August 20, 2007.
Petitioner filed several postconviction motions stated in detail in the statement of the facts, which
allowed a timely filed section 2254 petition for writ of habeas corpus in the United States District
However, on March 22, 2018, the United States District Court,

court.

Middle District of Florida, Tampa

Division, dismissed the petition as untimely.
The United States Court of Appeals deniedcertificate of appealability
denied motion for reconsideration on April 19, 2021.

5

on March 3, 2021, and

STATEMENT OF THE FACTS
Appellant judgment and sentence became final on May 6, 2009. Appellant had 90-days or
through August 4, 2009, to petition the United States Supreme Court for wit of certiorari.
States Supreme Court Rule 13. Appellant had through August 4.

See United

2010, absent any tolling to file his

section § 2254 petition in the Federal District Court.
On March 8,2010, Appellant filed a Rule 3.800, Fla. R. Crim.

R motion in the trial court, which

was finally denied by the State appellate court on February 31,2011: a period of226-days elapsed before
time tolled. Appellant had 139- days remaining or through June 30,2011, to file is section § 2254 petition
in this case.
The Federal Court has miscalculated my days.
On February 4, 201 1, Appellant filed a Rule 3.850, Fla. R.

Crim. P. motion in the trial court,

which was stricken with leave to amend because the motion exceeded
Appellant amended motion was also stricken for the

the limit by twenty pages.

same reason because appellant supplemented the

amended motion with an additional eighteen pages. Appellant’s second amended Rule 3.850
also supplemented, totaling eighty-two pages. As a

motion was

consequence, the motion was denied with prejudice

for failing to comply the rules governing the length of a Rule 3.850motion
On June

5, 2014, the State appellate court issued the

mandate on Appellant’s denial of Rule

3.850 motion; aperiod of 52-days elapsed before time tolled. Appellant had 87-days to file his seetion
§ 2254 petition in the United States District Court.
While Appellant’s Rule 3.850 motion was pending a ruling in the State appellate
court,
Appellant filed a second Rule 3.800 motion, which was
ultimately Denied by the State appellate
court on October 7, 2014. Appellant had a new deadline of January 12, 2015, to file his section §
2254 petition but filed it on January 16,2015.

6

REASONS FOR GRANTING THE PETITION
I

The lower courts’ decisions erred in failing to find Petitioner
habeas corpus timely in the United States District Court,

section 2254 petition for writ of

The lower courts’ decisions conflict with the

relevant decisions of this Honorable Court in Holland v. Florida1. This

case is a timely opportunity to

correct a manifest injustice. Additionally, the decision below i
is erroneous, and the issue that it addresses
is important.
I-

The lower courts erred in denying the

Petitioner section 2254 petition for writ of
habeas corpus as untimely
Under the statutory tolling of the limitations period, the one-year limitations period for habeas
corpus is tolled by state postconviction or other collateral proceedings that are properly filed

as a matter
of governing state procedural law but not by the period needed to prepare a state postconviction
petition.
See 28 U.S.C. 2244(d)(2) (The time during which a properly filed application for State post-conviction
or other collateral review with respect to the pertinent judgment or claim is pending shall not be counted
toward any period of limitation under this subsection.). See, e.g„ Day v. McDonough, 547U.S. 198 or,
201 or (2006) (The one-year clock is stopped during the time the petitioners properly filed application
for state postconviction relief is pending, (quoting 28 U.S.C. 2244(d) (2)))
For purposes of this tolling mechanism, [a]n application is properly filed when its delivery and
acceptance are in compliance with the applicable laws and rules governing filings. See Artuz v. Bennett,
531 U.S. 4,8 (2000). Prior to the Courts decisi on in Artuz v. Bennett, the lower courts were divided
on
the question whether the properly fded language required merely compliance with formal pleading, frling.
and timing requirements or whether it also demanded compliance with jurisdictional, substantive,

and

default-avoiding requirements. The tolling period includes the time during which the denial of a
state
postconviction petition is on appeal within the state judicial

1 Holland v. Florida, 560 U.S. 631, 648 (2010).
7

system including the time following a trial

The tolling provision applies not only to the first state postconviction petition but also to any second
or successive state postconviction petition that is properly filed as a matter of state procedural law. See.
e-g->Drew v. Department of Corr., 297 F.3d 1278, 1284, 1285 (11th Cir. 2002), cert, denied, 537 U.S.
1237 (2003) (petitioners third state court application would have been properly filed despite its
untimeliness if it had alleged facts that would trigger any of the three exceptions set forth in the Florida
statute[j; [ujnder Artuz [v. Bennett], the fact that a motion is successive does not render it improperly
filed)
The federal courts have employed the equitable tolling doctrine to create a grace period for
prisoners whose convictions became final before the Antiterrorism and Effective Death Penalty Act
(AEDPAs) enactment and who would otherwise be denied a full year following AEDPAs enactment to
file a habeas corpus petition or section 2255 motion. The equitable tolling doctrine also can be invoked,
regardless of whether a prisoner’s conviction became final before or after AEDPAs enactment, to avert
unjust application of AEDPAs statute of limitations to bar a federal habeas corpus petition or section 2255
motion. As this Honorable Court has explained, the application of the equitable tolling doctrine in
appropriate cases allows the federal courts to further AEDPAs basic purposes of eliminat[ing] delays in
the federal habeas review process without undermining basic habeas corpus principles and to ensure that
the statute of limitations does not impinge upon the vital role that the writ of habeas corpus plays in
protecting constitutional rights or close courthouse doors that a strong equitable claim would ordinarily
keepopen. SeeHollandv. Florida, 560U.S. 631,648 (2010).Seeid.at645-48 ([LJikeall 11 Courts of Appeals
thathaveconsidered the question, we hold that 2244(d) is subject of equitable tolling in appropriate cases.
We basq our conclusion on the following considerations. First, the AEDPA statute of limitations defense is
not jurisdictional. It does not set forth an inflexible rule requiring dismissal whenever its clock has run.
We have previously made clear that a nonjurisdictionol federal statute of limitations is normally subject to
a rebuttal presumption in favor of equitable tolling. In the case of AEDPA, the presumptions strength is
reinforced by the fact that equitable principles have traditionally governed the substantive law of habeas
corpus, for we will not construe a statute to displace courts traditional equitable authority absent the

8

courts denial of state postconviction relief and before a timely notice of appeal is filed. See Evans v. Chavis,
546U.S. 189 or, 191 or, 198, 201 (2006) (The time that an application for state postconviction review
is pending [for purposes of section 2244(d)(2)s tolling provision] includes the period between (1) slower
courts adverse determination, and (2) the prisoners filing of a notice of appeal, provided that the filing of
the notice of appeal is timely under state law.; if state statutes and rules do not specify number of days
for timely filing and instead afford reasonable time for filing of notice of appeal and if state

courts

treatment of state postconviction petition does not clear[ly] indicate^] that request for appellate review
was timely or untimely, the [federal] Circuit must itself examine the delay in [the] case and determine
what the state courts would have held in respect to timelinessf,] without using

a merits determination

[by state court] as an absolute bellwether (as to timeliness). See Carey v. Saffold, 536 U.S. 214,217,
21921, 22425 (2002)(for purposes of section 2244(d)(2)s tolling provisions phrase during which

on

application for state collateral review is pending in the state courts, the statutory word pending cover[s]
the time between a lower state courts decision and the filing of a notice of appeal to a higher state
court, including in California, notwithstanding states employment of unique state collateral review
system that does not involve a notice of appeal, but rather the filing (within a reasonable time) of a
further original state habeas petition in a higher court. [A]n application is pending as long as the ordinary
state collateral review process is in continuance i.e., until the completion of that process. In other words,
until the application has achieved final resolution through the States post-conviction procedures, by
definition it remains pending.)
The tolling period does not include certiorari review by the United States Supreme Court of the
state courts denial of postconviction relief. See Lawrence v. Florida, 549 U.S. 327 or, 329 or (2007)
(Congress established a 1-year statute of limitations for seeking federal habeas corpus relief from a statecourt judgment, 28 U.S.C. 2244(d), and further provided that the limitations period is tolled while an
application for State post-conviction or other collateral review is pending, 2244(d)(2). We,must decide
whether a state application is still pending when the state courts have entered

a final judgment on the

matter but a petition for certiorari has been filed in this Court. We hold that it is not.).

clearest command. The presumptions strength is yet further reinforced by the fact
enacted AEDPA

after

this

Court

that

Congress

decided Irwin [v. Department of Veterans Affairs, 498 U.S.

89 (1990)] and therefore was likely aware that courts, when interpreting AEDPAs timing provisions,
would apply the presumption. We recognize that AEDPA seeks to eliminate delays in the federal habeas
review process. But AEDPA seeks to do so without undermining basic habeas corpus principles and while
seeking to harmonize the new statute with prior law, under which a petitions timeliness was always
determined under equitable principles. When Congress codified new rules governing this previously
judicially managed area of law. it did so without losing sight of the fact that the writ of habeas corpus
plays a vital role in protecting constitutional rights. It did not seek to end every possible delay at all
costs. The importance of the Great Writ, the only writ explicitly protected by the Constitution, Art. 1,9,
cl. 2, along with congressional efforts to harmonize the new statute with prior law, counsel’s hesitancy
before interpreting AEDPAs statutory silence as indicating a congressional intent to close courthouse
doors that a strong equitable claim would ordinarily keep open.).
Petitioner submits that a habeas corpus petitioner is entitled to equitable tolling if he shows (1)
that he has been pursuing his rights diligently, and (2) that some extraordinary circumstance stood in his
way and prevented timely filing. See Menominee Indian Tribe v. United States, 136 S. Ct. 750, 755, 756
n.2 (2016) (quoting above standard of Holland for equitable tolling, explaining that court of appeals
employed standard to deny Tribes request for equitable tolling, and observing that we have never held
that [Ho/lands] equitable-tolling test necessarily applies outside the habeas context, and we have no
occasion to decide whether an even stricter test might apply to a nonhabeas case): Lawrence v. Florida,
549 U.S. 327 or, 335 & n.3, 336 (2007) (To be entitled to equitable tolling, Lawrence must show (1) that
he has been pursuing his rights diligently, and (2) that some extraordinary circumstance stood in his way
and prevented timely filing: equitable tolling may be available in cases in which prisoner prevailed in
state court and Supreme Court then grants certiorari and overturns state court judgment and in which
prisoner then is time-barred from filing federal habeas corpus petition, given arguably extraordinary

to

circumstances and the prisoners diligence)
In applying these general criteria, a federal court can appropriately draw upon decisions made in
other similar cases for guidance, but with awareness of the fact that specific circumstances, often hard to
predict in advance, could warrant special treatment in an appropriate case. See Holland v. Florida, 560
U.S. at 649. In reviewing the 11th Circuits application of the equitable tolling doctrine to the facts of the
case, this Court in Holland rejected the 11th Circuits overly rigid per se approach of categorically
foreclosing equitable tolling to excuse late filing caused by the prisoners lawyer except where the
prisoner presents proof of [counsels] bad faith, dishonesty, divided loyalty, mental impairment or so forth.
Id. at 649,653. See also, e.g.,Sochav. Boughton, 763 F.3d 674 at 685, 686-687 ((7th Cir. 2015) (rejecting
states attempt to pick off each of the circumstances Socha identifies, explaining why in isolation it is not
enough to justify equitable tolling. Incarceration alone, for example, does not qualify as

an extraordinary

circumstance: It does not matter that one could look at each of the ci
circumstances encountered by Socha
in isolation and decide that none by itself required equitable tolling. The mistake made by the district
court and the state was to conceive of the equitable tolling inquiry as the search for a single trump
card, rather than an evaluation of the entire hand that the petitioner was dealt. In Holland, the Supreme
Court disapproved the use of such a single-minded approach. It wrote instead that a persons case is to
be considered using a flexible standard that encompasses all of the circumstances that he faced and the
cumulative effect of those circumstances.; equitable tolling is granted because hurdles which Socha faced
including difficulties in obtaining case file from former counsel, limited access to prison law library, and
inadequacy of library resources were nearly insurmountable when everything [is taken] into account).
On the above stated facts and law, Petitioner submits that he should be entitled to equitable tolling
in this case because Petitioner judgment and sentence became final

on May 6, 2009. Petitioner had 90-

days or through August 4, 2009, to petition the United States Supreme Court for writ of certiorari. See
United States Supreme Court Rule 13. Appellant had through August 4,2010, absent any tolling to file his
section § 2254 petition in the Federal District Court.

II

On March 18,2010, Petitioner filed a Rule 3.800, Fla. R. Crim. P. motion inthe trial court, which was
finally denied by the State appellate court on February 11, 2011: a period of 226-days elapsed before
time tolled. Appellant had 139-days remaining or through June 30,2011, to file is section § 2254 petition
in this case.
0n

Petitioner filed a Rule 3.850. Fla. R. Crim. P. motion in the trial court

, which

was stricken with leave to amend because the motion exceeded the limit by twenty pages. Petitioner
amended motion was also stricken for the same reason because Petitioner supplemented the amended
motion with an additional eighteen pages. Petitioner's second amended Rule 3.850 motion

was also

supplemented, totaling eighty-two pages. As a consequence, the motion was denied with prejudice for
failing to comply the rules governing the length of a Rule 3.850 motion. However, Petitioner submits to
this Honorable Court that at least a State appellate court, namely the Fourth District Court of Appeal has
reversed the dismissal with prejudice of a R e 3.850 motion for noncompliance of page limitation on the
basis that
[wjhile we understand the court’s frustration, we conclude that it should have
reviewed the pages within the fifty-page limit as a motion that was
comprehensive, single, and sworn," and stricken the pages that followed See
e.g.Mancino v Stale 10So.3D 1203, (Fla. 4'"DCA. 2009) (noting that rejection
ot motion based onform is not the same as a Spera rejection). The court’s failure
to review the sufficiency of the motion amounted to an abuse of discretion. See
Fla. R. Crim. P. 3.850(f) (2) (providing a court with discretion to deny with
prejudice where an amended motion is still insufficient). We therefore reverse and
remand for further proceedings. Reversed and Remanded. Damoorgian C.J.
Warner and Klingensmith, JJ.,concur.
’
’
McGill v. State, 157 So. 3d 433 (Fla. 4th DCA2015)
On the above stated facts and law, Petitioner's Rule 3.850 motion should be

considered properly

filed and tolled the limitation period for Petitioner to file a section 2254 petition in the United States
District Court.
On June 5,2014, the State appellate court issued the mandate on Petitioner’s denial of Rule 3.850
motion: a period of 52-days elapsed before time tolled. Petitioner had 87-days to file his section § 2254
petition in the United States District Court.

n

While Petitioner’s Rule 3.850 motion was pending a ruling in theState appellate court, Petitioner
filed a second Rule 3.800 motion, which was ultimately denied by the State appellate court on October
17, 2014. Petitioner had a new deadline of Januaiy 12. 2015, to file his section § 2254 petition but filed
it on January 16.2015.
Petitioner submits to this Honorable court that he is entitled to equitable tolling because of a
mental disability. Petitioner submitted to the District Court that his diagnosis of bipolar disorder showed
that he was incapable of pursuing his state court remedies or filing his federal habeas petition within the
limitations period. There is information in the record before this Honorable Court to suggest that
Petitioner was incompetent during all or even a significant portion of the time he allowed to elapse before
the limitations period expired. Petitioner asserts that since 2010, he was experiencing a depress!

ve state of

mind that did not allow him to concentrate on any matters of his personal life. All Petitioner saw was
sadness, hopelessness everywhere. Petitioner's memory was very poor, thoughts were very slow. These
symptoms prevented Petitioner from filing State or Federal collateral challenges to this judgment

and

sentence in the litigation of this cause.
In sum, even though, Petitioner filed his habeas petition four days after the Statute of limitations
expired, he was diligent in pursuing his rights, and he has demonstrated

an exceptional circumstance (a

mental illness) justifying equitable tolling of the statute of limitations. The District Court’s determination
that although Petitioner suffers from a bipolar disorder, he is not entitled to equitable tolling is incorrect.
The record does not support the District Court’s conclusion that Petitioner

was able to appreciate the

need to file a timely section 2254 petition. See Lows v. Lomorque, 35a R 3d 9) 9, 924 (9th Cir. 2003)
This Honorable Court should find that reasonable jurists would find debatable the District Court’s
dismissal of Mr. Marr’s § 2254 petition as time- barred. This Honorable Court should reverse the denial
of certificate of appealability (COA) by the United States Court of Appeals for the Eleventh Circuit at
this time.
II- The Question Presented is Important
/3

Petitioner is presenting an important Federal question of constitutional dimension in which the
lower courts did not reasonably applied this Court’s law inHolland, supra. Petitioner affiimatively asserts
that this case would have had a different outcome if the lower court had granted COA on the question of
timeliness in this cause. There is no doubt that the lower Court erred in finding Petitioner's

section 2254

petition untimely; even though Petitioner can show extraordinary circumstances that entitles him to
equitable tolling to be timely in federal court.
With this case, this Honorable Court should set a new precedent requiring that cases like the
Petitioner's be treated with the respect and humanity that people with mental illnesses deserve in
litigating their cases in State and federal Courts.
Finally, review of the decision below is important because Federal courts have established that
Xa] petitioner’s mental impairment might justify equitable tolling if it interferes with the

ability to

understand the need for assistance, the ability to secure it, or the ability to cooperate with or monitor
assistance the petitioner does secure.” Robertson v. Davey, 694 Fed. Appx. 599 (9 Cir. 2017).
In sum, lower courts across this nation would benefit greatly from this Court’s input
on an
issue like Petitioner’s. Moreover, a decision in this case, without a doubt would bring more justice
to the mental impaired person in need of compassion on a human disability. Therefore, this Court
should grant the petition.

/V

CONCLUSION
The Petitioner respectfully prays that this Honorable Court grants his petition for

a writ of

certiorari because Petitioner was timely with his section 2254 petition which was dismissed by the
District Court.

Respectfully submitted,

4y^/H^A

Timothy Man! DC #: 252162
CFRC-M/U^
7000 H.C. Kelley Rd.
Orlando, FL 32831
(Phone Number) Warden

Date:

) 7 , To T j

7sZ"Ll(o?

